HHS/OIG, Audit -"Review of the State of Georgia's Efforts to Account for and Monitor Sub-recipients' Use of Bioterrorism
Hospital Preparedness Program
Funds, Georgia Department of Human Resources,"(A-04-03-01012)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the State of Georgia's Efforts to Account for and Monitor Sub-recipients' Use of Bioterrorism Hospital
Preparedness Program Funds, Georgia Department of Human Resources," (A-04-03-01012)
November 12, 2003
Complete
Text of Report is available in PDF format (220 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Georgia Department of Human Resources (Georgia) generally accounted for program
funds  ($3.4 million received for the 2-year period ending March 31, 2004) in accordance with the terms and conditions
of the cooperative agreement with the Health Resources and Services Administration (HRSA) and applicable departmental regulations
and guidelines.  Georgia did not segregate expenditures by phase, within phase, or by priority area in its accounting
system.  Although segregation was not required, budget restrictions were specified in the cooperative agreement.  Georgia
officials acknowledged the importance of tracking expenditures in order to comply with the budget restrictions.  In
addition, Georgias sub-recipients must submit reports on their activities and expenditures.  Although Georgia officials
had not completed any site visits to sub-recipients, it was in the process of developing a site visit component.  Further,
Georgia officials stated that HRSA funding had not been used to supplant programs previously provided by other organizational
sources.  We recommended Georgia make changes to its accounting system to segregate expenditures by phase and priority
area; and, implement the site visit component and address problem areas as they are identified.  Georgia concurred
with our findings and recommendations and stated it would take the necessary steps to fully comply with the HRSA grant
guidelines.